HHS/OIG Audit: "Review of Outlier Payments Made To The Baystate Medical
Center Under the Outpatient Prospective Payment System For The Period August 1,
2000 Through June 30, 2001," (A-01-02-00528)
Department
of Health and Human Services
"Review of Outlier Payments Made to the Baystate Medical Center Under
the Outpatient Prospective Payments System For The Period August 1, 2000 Through
June 30, 2001," (A-01-02-00528)
March 6, 2003
Complete Text of Report is available in PDF format
(518 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of outpatient
claims with outlier payments submitted by the Baystate Medical Center (Hospital)
under the Medicare outpatient prospective payment system (OPPS).  The objective
of our audit was to determine whether outpatient claims with outlier payments
were billed in accordance with Medicare laws and regulations.  For the
period August 1, 2000 through June 30, 2001, we reviewed a sample of 38 such
claims, totaling $145,736, and found that 37 claims were incorrectly billed.
Specifically, the billing errors primarily included claims with incorrect ambulatory
payment classification codes, as well as claims with incorrect units and clerical
errors.  As a result, we identified both overpayments and underpayments
resulting in a net Medicare overpayment to the Hospital of $7,939.  We
recommended that the Hospital strengthen its policies and procedures with regard
to billing for outpatient services under OPPS and to initiate adjustments with
the Medicare Fiscal Intermediary for the $7,939 in overpayments identified through
this audit.  The Hospital agreed with our findings and recommendations.